AO 245B (Rev. 02/18)

Judgment in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
MIDDLE District of TENNESSEE
)
UNITED STATES OF AMERICA
JUDGMENT IN A CRIMINAL CASE
)
v.
)
)
Case Number:
3:16-00163-1
)
)
BRITTAN EZEKIEL KETTLES
USM Number:
20858-075
)
)
Ben Russ
Defendant’s Attorney
)
THE DEFENDANT:
pleaded guilty to count(s)
pleaded nolo contendere to count(s)
which was accepted by the court.
X

was found guilty on count(s)
after a plea of not guilty.

1 and 2 of the Second Superseding Indictment.

The defendant is adjudicated guilty of these offenses:
Title & Section
18 U.S.C.§1591(a)(1) and
§1594(c)

Nature of Offense
Conspiracy to Recruit, Entice, Harbor, Transport, Provide,
Obtain and Maintain a Person Under the Age of 18 to Engage
In a Commercial Sex Act

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

8

Offense Ended
6/19/2016

Count
1

of this judgment. The sentence is imposed pursuant to

The defendant has been found not guilty on count(s)
X

Count(s) 3-6 of the 2nd S. Indictment

is

X are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to
pay restitution, the defendant must notify the court and United States attorney of material changes in economic circumstances.
June 19, 2019
Date of Imposition of Judgment

Signature of Judge

ALETA A. TRAUGER, U.S. DISTRICT JUDGE
Name and Title of Judge

June 25, 2019
Date

Case 3:16-cr-00163 Document 450 Filed 06/25/19 Page 1 of 8 PageID #: 2601

AO 245B (Rev. 02/18)

Judgment in a Criminal Case
Sheet 1A
Judgment—Page

DEFENDANT:
CASE NUMBER:

2

of

BRITTAN EZEKIEL KETTLES
3:16-00163-1

ADDITIONAL COUNTS OF CONVICTION
Title & Section

Nature of Offense

Offense Ended

Count

18 U.S.C.§1591(a)(1) and
§1591(b)(1)

Recruiting, Enticing, Harboring, Transporting, Providing,
Obtaining and Maintaining a Person Under the Age of 14
To Engage in a Commercial Sex Act

6/19/2016

2

Case 3:16-cr-00163 Document 450 Filed 06/25/19 Page 2 of 8 PageID #: 2602

8

AO 245B (Rev. 02/18)

Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

DEFENDANT:
CASE NUMBER:

3

of

BRITTAN EZEKIEL KETTLES
3:16-00163-1

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a
total term of:
180 months as to each of counts 1 and 2 to run concurrently with each other.

X The court makes the following recommendations to the Bureau of Prisons:

1. That defendant be housed in a federal facility close to Nashville, Tennessee.
2. That defendant receive vocational training in a Bureau of Prisons UNICOR facility.

X The defendant is remanded to the custody of the United States Marshal.
The defendant shall surrender to the United States Marshal for this district:
at

a.m.

p.m.

on

.

as notified by the United States Marshal.
The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
before 2 p.m. on

.

as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 3:16-cr-00163 Document 450 Filed 06/25/19 Page 3 of 8 PageID #: 2603

8

AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 3 — Supervised Release
Judgment—Page

DEFENDANT:
CASE NUMBER:

4

of

8

BRITTAN EZEKIEL KETTLES
3:16-00163-1

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:
5 years as to each of counts 1 and 2 to run concurrently with each other.

MANDATORY CONDITIONS
1.
2.
3.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.

4.
5.
6.

7.

X

The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if applicable)
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (check if applicable)
You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

Case 3:16-cr-00163 Document 450 Filed 06/25/19 Page 4 of 8 PageID #: 2604

AO 245B (Rev. 02/18)

Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page

DEFENDANT:
CASE NUMBER:

5

of

8

BRITTAN EZEKIEL KETTLES
3:16-00163-1

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by
probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.

2.
3.
4.
5.

6.
7.

8.

9.
10.

11.
12.

13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different
time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If
notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer
within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least
10 days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.

Defendant's Signature

Date

Case 3:16-cr-00163 Document 450 Filed 06/25/19 Page 5 of 8 PageID #: 2605

AO 245B(Rev. 02/18)

Judgment in a Criminal Case
Sheet 3D — Supervised Release
Judgment—Page

DEFENDANT:
CASE NUMBER:

6

of

8

BRITTAN EZEKIEL KETTLES
3:16-00163-1

SPECIAL CONDITIONS OF SUPERVISION
1.

2.

3.

4.

Drug Treatment
The defendant shall participate in a program of drug testing and substance abuse treatment which may include a 30-day inpatient treatment program followed by
up to 90 days in a community correction center at the direction of the United States Probation Office. The defendant shall pay all or part of the cost for
substance abuse treatment if the United States Probation Office determines the defendant has the financial ability to do so or has appropriate insurance coverage
to pay for such treatment.
Mental Health Treatment
The defendant shall participate in a mental health program as directed by the United States Probation Office. The defendant shall pay all or part of the costs if
the United States Probation Office determines the defendant has the financial ability to do so or has appropriate insurance coverage to pay for such treatment.
Financial Records
The defendant shall furnish all financial records, including, without limitation, earnings records and tax returns, to the United States Probation Office upon
request.
Sex Offender Treatment
The defendant shall participate in sex offender assessment and treatment, including but not limited to polygraph examinations recommended by the treatment
provider and as directed by the probation officer. The defendant shall contribute to the cost determined by the U.S. Probation Office.

5.

Alcohol Abstinence
The defendant shall not consume any alcoholic beverages.

6.

Residence Restriction
The defendant’s residence and employment shall be pre-approved by the probation officer.

7.

Sex Offender Registration
The defendant shall register as a sex offender as prescribed by state and federal law.

8.

9.

10.

11.

Restricted Contact with Minors and Victim
The defendant shall not associate with children under the age of 18 nor frequent, volunteer, or work at places where children congregate (e.g., playgrounds,
parks, malls, day-care centers or schools) unless approved by the United States Probation Office.
The defendant shall have no direct or indirect contact with A.D. or the victim’s immediate family, without the prior approval of the United States Probation
Office, and the United States Probation Office will verify compliance with this condition.
Sex Offender Registration
The defendant shall register as a sex offender as prescribed by state and federal law.
Computer Restrictions
The defendant shall not possess or use a computer or any device with access to any “on-line computer service” at any location (including place of employment)
without the prior written approval of the United States Probation Office. This includes any Internet service provider, bulletin board system, or any other public
or private network or e-mail system. The defendant’s residence shall not contain any electronic devices capable of internet access without the approval of the
probation officer.

12.

The defendant shall consent to the United States Probation Office conducting unannounced examinations of the defendant’s computer system(s), mobile
devices, and internal/external storage devices, which may include retrieval and copying of all memory from hardware/software and/or removal of such system(s)
for the purpose of conducting a more thorough inspection. The defendant will consent to having installed on the defendant’s computer(s), any hardware/software
to monitor computer use or prevent access to particular materials. The defendant will further consent to periodic inspection of any such installed
hardware/software to ensure it is functioning properly. The defendant shall pay the cost of the installation of and the continuing use of the monitoring program.

13.

The defendant shall provide the United States Probation Office with accurate information about the defendant’s entire computer system (hardware/software) and
internal/external storage devices; all passwords used by the defendant; and will abide by all rules regarding computer use and restrictions as provided by the
United States Probation Office.

Case 3:16-cr-00163 Document 450 Filed 06/25/19 Page 6 of 8 PageID #: 2606

AO 245B (Rev. 02/18)

Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties
Judgment — Page

DEFENDANT:
CASE NUMBER:

7

of

8

BRITTAN EZEKIEL KETTLES

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
$ 200

TOTALS

JVTA Assessment*

Fine

$

$

Restitution

$

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

The determination of restitution is deferred
until after such determination.

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.

TOTALS

Restitution Ordered

Total Loss**

Name of Payee

$

Priority or Percentage

$

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
the interest requirement is waived for
the interest requirement for

fin
fine

restitution.

restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on
or after September 13, 1994, but before April 23, 1996.

Case 3:16-cr-00163 Document 450 Filed 06/25/19 Page 7 of 8 PageID #: 2607

AO 245B (Rev. 02/18)

Judgment in a Criminal Case
Sheet 6 — Schedule of Payments
Judgment — Page

DEFENDANT:
CASE NUMBER:

8

of

8

BRITTAN EZEKIEL KETTLES
3:16-00163-1

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

X

Lump sum payment of $ 200
not later than
in accordance with

C

due immediately, balance due (special assessment)

D,

, or
E, or

B

Payment to begin immediately (may be combined with

C

Payment in equal

D

Payment in equal

F below; or
C,

D, or

F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

Special instructions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
during the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

Case 3:16-cr-00163 Document 450 Filed 06/25/19 Page 8 of 8 PageID #: 2608

